TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Actions Can Be Taken to Reinforce the
                 Importance of Recognizing and Investigating
                    Fraud Indicators During Field Audits



                                       March 29, 2012

                             Reference Number: 2012-30-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.
 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


ACTIONS CAN BE TAKEN TO                               indicators are recognized and properly
REINFORCE THE IMPORTANCE OF                           investigated.
RECOGNIZING AND INVESTIGATING                         WHAT TIGTA RECOMMENDED
FRAUD INDICATORS DURING FIELD
AUDITS                                                TIGTA recommended that the Director, Exam
                                                      Policy, Small Business/Self-Employed Division:
                                                      1) enhance the job aid examiners are required to
Highlights                                            maintain in audit files related to documenting
                                                      and investigating fraud indicators, and 2) provide
Final Report issued on March 29, 2012                 specific examples in the Internal Revenue
                                                      Manual for examiners and first-line managers to
Highlights of Reference Number: 2012-30-030           use in considering whether it would be beneficial
to the Internal Revenue Service Commissioner          to involve the IRS’s technical advisors on fraud
for the Small Business/Self-Employed Division.        in field audits for which there are indications of
                                                      fraud.
IMPACT ON TAXPAYERS
                                                      IRS officials did not agree with the first
Penalties, such as for civil fraud, are designed to   recommendation. They indicated that the job
promote voluntary compliance by imposing an           aid (Fraud Development Lead Sheet) was
economic cost on taxpayers who choose not to          significantly enhanced in March 2011. In
comply with the tax law. Because indicators of        addition, IRS officials did not agree with the
fraud were not always recognized and properly         second recommendation, but do plan to take
investigated, the IRS may be missing                  alternative corrective action. IRS officials will
opportunities to further promote voluntary            issue a memorandum to all Examination
compliance and enhance revenue for the                employees emphasizing the importance of
Department of the Treasury.                           involving the technical advisors in audits.

WHY TIGTA DID THE AUDIT                               As discussed in this report, TIGTA evaluated the
                                                      enhanced Fraud Development Lead Sheet
This audit was initiated to determine whether         during this review and continues to believe
fraud is recognized and pursued in accordance         further enhancements would be beneficial.
with IRS procedures and guidelines during field       TIGTA also considered the alternative corrective
audits of individual tax returns. The review was      action IRS officials plan to take and concluded
part of our planned Fiscal Year 2011 audit            that it is responsive to the recommendation.
coverage and addresses the major management           However, TIGTA encourages IRS officials to go
challenge of Tax Compliance Initiatives.              beyond merely reiterating existing procedures in
                                                      their memorandum by providing additional
WHAT TIGTA FOUND
                                                      instructions and guidance to clarify when the
TIGTA’s review of a statistical sample of             assistance of a technical advisor should be
116 field audits closed between July 2009 and         sought.
June 2010 found 26 audits with fraud indicators
                                                      Such clarification is important for two reasons.
that were not recognized and investigated in
                                                      First, there is potential revenue at stake. As
accordance with some key IRS procedures and
                                                      noted in their response, IRS officials agreed that
guidelines. Each of the field audits involved
                                                      the recommendations have the potential to
unreported income and/or overstated expenses
                                                      increase revenue by some $19.7 million over a
that resulted in the taxpayers agreeing they
                                                      year ($98.5 million over five years) from
owed additional taxes of at least $10,000.
                                                      approximately 1,872 field audits. Second, as
TIGTA’s evaluation indicates that a combination
                                                      discussed in the report, Small Business/
of factors caused the quality problems and that
                                                      Self-Employed Division Examination personnel
actions can be taken at the examiner and
                                                      and the technical advisors did not always agree
first-line manager levels to better ensure fraud
                                                      with each other over the conclusions reached in
                                                      our case reviews.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 29, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Can Be Taken to Reinforce the
                             Importance of Recognizing and Investigating Fraud Indicators During
                             Field Audits (Audit # 201130021)

 This report presents the results of our review to determine whether fraud is recognized and
 pursued in accordance with Internal Revenue Service procedures and guidelines during field
 audits of individual tax returns. The review was part of our Fiscal Year 2011 Annual Audit Plan
 and addresses the major management challenge area of Tax Compliance Initiatives.
 Management’s complete respose to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (202) 622-8510.
                                         Actions Can Be Taken to Reinforce
                                   the Importance of Recognizing and Investigating
                                         Fraud Indicators During Field Audits




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Numerous Management Controls Have Been Developed
          to Help Ensure Fraud Is Emphasized and Considered
          During Audits................................................................................................ Page 3
          Opportunities May Have Been Missed to Enhance the
          Contribution Fraud Penalties Make to Compliance ...................................... Page 6
                    Recommendation 1:........................................................ Page 9

                    Recommendation 2:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Summary of Disagreed Exception Field Audits .................... Page 22
          Appendix VI – Fraud Development Lead Sheet .......................................... Page 29
          Appendix VII – Glossary of Terms .............................................................. Page 31
          Appendix VIII – Management’s Response to the Draft Report ................... Page 33
              Actions Can Be Taken to Reinforce
        the Importance of Recognizing and Investigating
              Fraud Indicators During Field Audits




                Abbreviations

BSA       Bank Secrecy Act
FTA       Fraud Technical Advisor
FY        Fiscal Year
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
NQRS      National Quality Review System
SB/SE     Small Business/Self-Employed
TIGTA     Treasury Inspector General for Tax Administration
                                       Actions Can Be Taken to Reinforce
                                 the Importance of Recognizing and Investigating
                                       Fraud Indicators During Field Audits




                                                 Background

Tax fraud is a deliberate and purposeful violation of Internal Revenue laws by those who do not
file and properly report their income and expenses. Tax fraud requires both an underpayment
and fraudulent intent, and it can be considered one of the most egregious forms of
noncompliance.
According to the Internal Revenue Manual (IRM), the discovery and development of fraud is the
result of effective investigative techniques. The investigative techniques employed by examiners
are designed to disclose not only errors in accounting and application of tax law, but also
irregularities that indicate the possibility of fraud. At a minimum, the IRM indicates that
examiners should exercise sound judgment and follow up on all fraud indicators by performing
necessary investigative techniques, such as interviewing the taxpayer or substantiating
information obtained from the taxpayer with third parties. The IRM emphasizes that fraud will
not ordinarily be discovered when examiners readily accept the completeness and accuracy of
the records presented and the explanation offered by the taxpayer. It is necessary for examiners
to explore records and to probe beneath the surface to validate information provided and
statements made in order to evaluate the creditability of evidence and testimony provided by the
taxpayer.
During audits, Internal Revenue Service (IRS) examiners are largely focused on determining
whether the correct tax liability has been reported. However, if an examiner suspects there are
indications that a taxpayer may have committed tax fraud,1 the examiner’s first-line manager2
and an IRS Fraud Technical Advisor (FTA) may become involved in the audit. Their
involvement will be to determine whether to pursue imposing a civil fraud penalty or whether the
audit file should be referred to Criminal Investigation for possible criminal prosecution. If
imposed, the civil fraud penalty is equal to 75 percent of the tax owed that is attributable to
fraud, plus interest on the penalty. Although civil and criminal tax fraud involves significant
dollars in penalties and fines annually, criminal tax fraud is considerably more serious because it
can involve prosecution costs and jail time.
IRS records show that Small Business/Self-Employed (SB/SE) Division field examiners
recommended, on average, 1,175 civil fraud penalties during Fiscal Years (FY) 2008 through
2011. During this time period, SB/SE Division field examiners also coordinated with their
first-line group managers and FTAs to complete, on average, 2,327 Forms 11661, Fraud
Development Recommendation – Examination. Form 11661 is used to document the FTA’s
involvement and place an audit in fraud development status. Once an audit is placed in fraud

1
    Tax fraud consists of both civil and criminal tax fraud.
2
    See Appendix VII for a glossary of terms.
                                                                                            Page 1
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



development status, a plan of action is usually developed jointly with the examiner, first-line
manager, and FTA to establish affirmative acts (proof) of fraud and guide the investigation to its
appropriate conclusion in a timely manner.
This review was performed at the SB/SE Division Examination function in New Carrollton,
Maryland, and the IRS National Headquarters in Washington, D.C., during the period
October 2010 through September 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                                  Actions Can Be Taken to Reinforce
                            the Importance of Recognizing and Investigating
                                  Fraud Indicators During Field Audits




                                    Results of Review

Our review of a statistical sample of 116 closed field audits found 26 audits with fraud indicators
that were not recognized and investigated in accordance with some key IRS procedures and
guidelines. As a result, opportunities may have been missed to further promote voluntary
compliance and enhance revenue for the Department of the Treasury. The Treasury Inspector
General for Tax Administration’s (TIGTA) evaluation indicates that a combination of factors
caused the quality problems and that actions can be taken at the examiner and first-line manager
levels to better ensure fraud indicators are recognized and properly investigated.

Numerous Management Controls Have Been Developed to Help
Ensure Fraud Is Emphasized and Considered During Audits
The IRS relies on its examiners and their first-line managers to ensure that the civil fraud penalty
is adequately considered. To assist examiners and first-line managers in meeting this
responsibility, the IRS has developed and implemented a number of policies, procedures, and
techniques (management controls). At the agency level, broad policy statements provide
guidance nationwide to IRS personnel. Of the 184 IRS Policy Statements, 36 cover examination
issues, such as taxpayer rights and examiner responsibilities.
At the divisional level, the quality measurement staff in the SB/SE Division reviews a
statistically valid sample of examination audits to assess the degree to which SB/SE Division
examiners pursued and developed fraud indicators. In addition to reviews by the SB/SE Division
quality measurement staff, SB/SE Division mid-level managers may evaluate ongoing work
during operational reviews. Operational reviews are required to be performed at least annually
to ensure work is being done effectively. These processes serve as a quality control by
identifying managerial, technical, and procedural problems and providing a basis for corrective
actions.
At the first-line manager level, the performance management system requires that, at the
beginning of each fiscal year, first-line managers coordinate with their respective Territory
managers to set forth commitments in their individual performance plans. The commitments are
intended to provide the basis for linking first-line manager critical job responsibilities with the
IRS’s balanced measures and strategic goals and holding them accountable for their individual
and team performances. To realize these benefits, the commitments are to be related to at least
one critical job responsibility. They should also, according to the IRS,3 specifically describe the


3
 See, for example, the IRS Human Capital Office guide entitled, Writing Performance Commitments “A Reference
Guide for Managers and Management Officials” (October 2005).
                                                                                                     Page 3
                                       Actions Can Be Taken to Reinforce
                                 the Importance of Recognizing and Investigating
                                       Fraud Indicators During Field Audits



actions to be taken, include a deadline, indicate an expected result, and include some means of
verifying whether the commitment was met. Our review of the FYs 2009 through 2011
performance agreements for a judgmental sample4 of 20 first-line managers found that all
20 managers received clear and specific commitments related to fraud consideration. We found,
for example, commitments that stated:
          I will improve the quality, effectiveness and efficiency of income probes and fraud
           development. I will deliver tools and training to examiners supporting income
           examination techniques. I will consult with the National Fraud Program on a quarterly
           basis to review potential fraud issues identified in case work, identify best practices and
           collaborate on potential areas of improvement. I will communicate the need to create an
           environment conducive to recognition of indicators of fraud and development of cases
           that meet the quality attributes.
          I will support the development of quality fraud referrals by coordinating with the FTA,
           communicating effective audit techniques to my employees, and by conducting timely,
           productive four-way meetings with Criminal Investigations. I will conduct a fraud
           awareness group meeting jointly with the National Fraud Program by June 30, 2010.
           Through managerial engagement in case activities, I will ensure correct and timely
           actions are taken in cases with indicators of fraud, as required by the Embedded Quality
           attributes. Success will be measured based on timeliness in conducting a fraud
           awareness group meeting, timeliness in conducting four-way conferences and
           documentation of managerial engagement activities.
As noted in the examples above, managers were required to complete certain actions related to
fraud within a specific time period. We believe that Territory managers should be able to use
these types of commitments to hold first-line managers responsible for meeting expectations,
including fraud consideration.
At the group level, first-line managers are also an important control component because they are
responsible for the quality of work performed by the examiners they supervise. A variety of
techniques are used to ensure examiners follow applicable standards and procedures when they
identify fraud indicators. These techniques include performance observations, discussions with
examiners, and reviews of audit file documentation during audits and after they are closed.
Through these observations, discussions, and reviews, first-line managers attempt to identify
problems so examiners can take prompt corrective actions. Our review of the FYs 2009 through
2011 performance appraisals and the Embedded Quality Review System for a judgmental sample
of 20 examiners found that 18 of the 20 examiners received feedback related to fraud
consideration.



4
    A judgmental sample is a nonstatistical sample for which the results cannot be used to project to the population.
                                                                                                                Page 4
                                 Actions Can Be Taken to Reinforce
                           the Importance of Recognizing and Investigating
                                 Fraud Indicators During Field Audits



The IRM is another important control component because it contains the official compilation of
detailed instructions and explanations of fraud consideration for examiners to follow during
audits. Throughout the IRM, examiners are instructed to properly document in audit files all
aspects of their work during the planning, initiating, conducting, and closing phases of audits.
Audit file documentation is important because it provides the principal evidence that procedures
were followed, as well as the foundation for other control processes, such as managerial reviews
and the quality measurement reviews. The importance of examiner documentation is further
emphasized in management directives, examiner training materials, and the quality measurement
standards.
In addition to the above controls, SB/SE Division management has continued to implement
various approaches to emphasize the expectation that examiners identify, pursue, and develop
fraud indicators. Specifically, since a 2007 TIGTA report,5 the Examination and Fraud/Bank
Secrecy Act (BSA) functions took the following actions during FYs 2008 through 2011:
       Issued a December 2007 memorandum to examiners reinforcing managerial and FTA
        involvement and the documentation of actions in the development of fraud cases.
       Implemented a case management tool that assists the FTAs in tracking the cases referred
        by examiners for further fraud development. This tool also facilitates cases to be
        reconciled to the Fraud/BSA function’s internal database and allows management to
        monitor FTA staffing needs.
       Highlighted the importance of the required discussion with the first-line manager to
        consider the potential for fraudulent activity when the examiner identifies an
        understatement of taxable income6 greater than $10,000 (a fraud indicator) in the
        August 2010 issue of Fraud Digest, a quarterly publication by SB/SE Division’s
        Technical Services.
       Developed a checklist that lists the fraud indicators and fraud penalty considerations.
        The checklist is an optional tool that may be used by examiners during audits.
       Provided examples of case studies illustrating proper development of fraud indicators for
        consideration of the civil fraud penalty in each quarterly issue of the Fraud Digest since
        November 2007.
Although there are layers of management controls in place to guide examiners through the
consideration of fraud, our results indicate that additional steps are needed to ensure that
potential fraud is adequately considered and investigated during field audits.



5
  TIGTA, Ref. No. 2007-30-179, Management Has Emphasized the Fraud Program, but Opportunities Exist to
Further Improve It (Sept. 2007).
6
  Taxable income is all income received minus allowable IRS deductions.
                                                                                                   Page 5
                                    Actions Can Be Taken to Reinforce
                              the Importance of Recognizing and Investigating
                                    Fraud Indicators During Field Audits



Opportunities May Have Been Missed to Enhance the Contribution
Fraud Penalties Make to Compliance
According to the IRS, penalties, such as for civil fraud, promote voluntary compliance by
imposing an economic cost on taxpayers who choose not to comply with the tax law.
Consequently, when penalties are not properly considered and assessed, opportunities can be
missed to provide economic disincentives for noncompliance, promote future compliance, and
enhance revenue for the Department of the Treasury.
We evaluated a statistical sample of 116 field audits that were closed between July 2009 and
June 2010 and found 26 (20 percent)7 field audits for which fraud indicators were not recognized
and investigated in accordance with some key IRS procedures and guidelines. For example, in
five of the 26 field audits, interviews with the taxpayer were not adequately performed to
determine the reasons income that ranged from approximately $30,000 to $750,0008 was not
reported. In 16 of the 26 field audits, third parties were not contacted to validate taxpayers’
assertions about who was responsible for omitting the income and/or overstating the expenses.
We found several instances, for example, where the taxpayers stated that return preparers caused
the errors. However, the audit file documentation indicated that the tax preparers were never
contacted by the examiners to confirm the taxpayers’ statements.
Overall, when the sample results are projected to our population of 9,292 closed field audits, we
estimate that fraud indicators were not recognized and investigated in 1,872 field audits. The
projection is based on a 95 percent confidence level. We expect the number of field audits where
fraud was not adequately considered to fall between 998 and 2,747. We estimate that additional
assessments totaling approximately $19.7 million9 in civil fraud penalties may have been avoided
by taxpayers.
We believe it is important to note that each of the field audits reviewed involved unreported
income and/or overstated deductions that resulted in the taxpayer agreeing he or she owed
additional taxes of at least $10,000. The $10,000 understatement threshold is important because




7
  Amount is rounded to the nearest percent and represents the weighted average exception rate. See Appendix IV
for the calculation.
8
  For these five audits, the total underreported income about which the taxpayers were not questioned amounted to
approximately $1.8 million.
9
  Our calculation assumes that the civil fraud penalty could have been assessed on 50 percent of the audits that we
determined were exceptions and is based on our analysis of readily available IRS data. We are unable to quantify
the degree of uncertainty associated with the estimated $19.7 million in additional assessments because of the
variability in the dollars assessed for the population of exception audits and the uncertainty as to which of the
individual exception audits could have resulted in a civil fraud penalty assessment. See Appendix IV for more
details.
                                                                                                             Page 6
                                   Actions Can Be Taken to Reinforce
                             the Importance of Recognizing and Investigating
                                   Fraud Indicators During Field Audits



it allowed us to review field audits for which examiners were required, according to the IRM,10 to
discuss the audit with their first-line manager so important decisions could be made about
whether the audit scope, depth, or techniques should be changed to investigate the potential for
fraudulent activity. In 15 of the 26 field audits, we did not find adequate documentation in the
audit files to indicate that such discussions were held. It is equally important to note that, while
the IRS’s FTAs agreed with the conclusion we reached in all 26 field audits, IRS SB/SE Division
Examination function officials disagreed with the TIGTA and the FTAs in 13 of the 26 field
audits. Appendix V provides a summary of these 13 field audits, including written comments we
received from both the FTAs and IRS SB/SE Division Examination function officials.

IRS quality reviews have also identified problems with fraud consideration
Recent reports issued by the SB/SE Division’s National Quality Review System (NQRS) staff
have also noted problems with the quality of fraud consideration performed by examiners. For
example, for FY 2010, the NQRS staff reported that examiners did not meet the standard for
determining if fraud indicators were pursued and developed in 55 percent of the field audits
reviewed for which fraud consideration was applicable.
Although we did not audit the accuracy of results reported by the SB/SE Division’s quality
measurement staff, one reason, among others, that could account for the difference between our
results (20 percent) and those reported by the SB/SE Division’s quality measurement staff
(55 percent) was the methodology used to evaluate the field audits. For example, the
SB/SE Division’s methodology considers an audit an exception if there is an understatement of
income11 greater than $10,000 and the examiner did not discuss the unreported income with the
first-line manager. For our review, we considered whether investigative techniques were
properly performed given the fraud indicators present in the file. Therefore, our methodology
would not take exception with an audit when the investigative techniques were properly
performed even when a discussion with the first-line manager had not occurred.
To address the concerns identified by the NQRS staff in FY 2010, the SB/SE Division
Examination function reemphasized the importance of fraud consideration to examiners and their
managers using the Division’s Technical Digest newsletter. The SB/SE Division Examination
function also provided training and presentation sessions that emphasized fraud consideration to
examiners and managers. For FY 2011, the NQRS staff reported that examiners did not meet the
standard for determining if the fraud indicators were pursued and developed in 35 percent of the
field audits reviewed for which fraud consideration was applicable. Although the IRS’s actions

10
   During discussions with IRS officials over the issues in this report, we learned, after our sample cases were
selected and reviewed, that the requirement that examiners discuss the audit with their manager when there was an
understatement of more than $10,000 of taxable income was corrected to indicate this requirement only applied
when there was an understatement of more than $10,000 of unreported income.
11
   The IRS methodology used income instead of taxable income in determining when first-line manager involvement
would be appropriate. Taxable income factors both income and any IRS deductions.
                                                                                                         Page 7
                                    Actions Can Be Taken to Reinforce
                              the Importance of Recognizing and Investigating
                                    Fraud Indicators During Field Audits



have resulted in an improvement (20 percent decrease) in the NQRS scores since FY 2010, the
fact that NQRS results show that about one out of every three audits where fraud consideration
was applicable is not meeting standards for considering fraud suggests there may be room to
better ensure fraud indicators are recognized and properly investigated.

Audit case files indicated that fraud indicators were not always recognized
Among the initial steps examiners need to take when investigating taxpayers that may be
involved in fraudulent activities is to recognize and document audit case files with indicators of
such behavior. To assist examiners with recognizing fraudulent behavior, the IRM lists the
following six categories of fraud indicators: income, expenses or deductions, books and records,
conduct of taxpayer, methods of concealment, and income allocation. Each category, in turn,
contains specific examples of supporting behavior that range from omissions of income,
substantially overstating expenses, and failing to keep adequate records to attempts to hinder the
audit, making false statements, and failing to disclose relevant facts to an accountant.
To help ensure fraudulent behavior is recognized and investigated, the SB/SE Division revised
the job aid during our review, which examiners are required to include in their audit case files.
The job aid is called the Fraud Development Lead Sheet12 and contains specific directions to
follow in considering, developing, and pursuing a civil fraud penalty or, if warranted, a referral
to the IRS’s Criminal Investigation. It also solicits certain factual information to help support
audit findings and provides references to the IRM where information can be found to answer
other questions that may surface.
Although the job aid provides consistent directions for guiding examiners through the fraud
development process, we found that fraud indicators were not recognized and properly
documented on the Fraud Development Lead Sheet in 15 of the 26 field audits where fraud was
not adequately considered.13 This finding indicates that the job aid could be enhanced by listing
the fraud indicators along with some of the related supporting behaviors and requiring examiners
to acknowledge which indicators, if any, were considered during the audit. We believe the
enhancements would involve minimal costs as the fraud indicators have already been identified
and are listed in the IRM. If well-designed, the enhancements could provide an even more
effective tool to reinforce the importance of examiners ensuring that fraud indicators are
recognized, investigated, and documented during audits. The enhancements could also help
facilitate managerial reviews after examiners submit the audit file for closing actions.
Specifically, for the 15 field audits that lacked documentation of fraud indicators, we found
evidence in the audit file of first-line manager involvement in each of these audits; however, the

12
  See Appendix VI for an example of the Fraud Development Lead Sheet.
13
  Although the Fraud Development Lead Sheet may not have been adequate for the remaining 11 audits, there was
evidence of first-line manager involvement in the examination beyond reviewing the audit file for closure, such as
the examiner discussing a fraud indicator with the first-line manager. Therefore, we did not include these 11 audits
in this analysis.
                                                                                                             Page 8
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



outcome of the managerial reviews and decisions to pursue and investigate civil fraud may have
been different had the fraud indicators been documented on the Fraud Development Lead Sheet.

The FTAs could have a greater role in the decision process to investigate fraud
indicators
The IRM specifies that when there are fraud indicators to investigate, a discussion should be
initiated with an FTA to help evaluate the risk posed and, if warranted, develop an investigative
action plan. The FTAs are generally selected from the ranks of experienced IRS examiners, and
the IRS considers the FTAs subject matter experts because they are specifically trained to assist
other examiners on the complexities of applying laws, regulations, and procedures governing the
development of criminal and civil tax fraud cases.
The first-line manager is the primary control to ensure FTA involvement in an audit when fraud
indicators are detected. However, the IRM does not provide specific criteria that require
first-line managers to involve an FTA in an audit. Instead, the decision to both further
investigate suspected fraudulent behavior and seek the assistance of an FTA is left largely to the
experience and judgment of each of the many first-line managers. As a result, the technical and
procedural expertise the FTAs possess is not always taken advantage of when warranted. In
26 of the 116 field audits reviewed, we identified fraud indicators that warranted FTA
involvement due to the number or magnitude of the behaviors noted in the audit case files.
Although the behaviors included large amounts of unreported income, substantial overstatement
of business expenses, failure to keep adequate books and records, and unexplained differences
between the amounts on the tax return and the amounts in books and records, we found evidence
of FTA involvement in only three of the 26 field audits. Moreover, of the 116 field audits
evaluated during this review, we found that only 11 audits involved an FTA, even though all had
at least one fraud indicator and resulted in an additional tax assessment of at least $10,000.

Recommendations
The Director, Exam Policy, SB/SE Division, should:
Recommendation 1: Enhance the Fraud Development Lead Sheet or develop and implement
a similar job aid to better assist examiners with recognizing, investigating, and documenting
fraud indicators in audit case files.
       Management’s Response: IRS officials did not agree with this recommendation.
       They indicated the job aid (Fraud Development Lead Sheet) was significantly enhanced
       in March 2011 to provide specific IRM references and guidelines, including those related
       to fraud development and indicators of fraud.
       Office of Audit Comment: As discussed in the report and displayed in Appendix VI,
       the TIGTA evaluated the enhanced job aid (Fraud Development Lead Sheet) as part of
       the review and found that it has some weaknesses that could make it difficult to ensure
                                                                                           Page 9
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



       examiners are recognizing and documenting fraud indicators. Because recognizing and
       documenting fraud indicators are critical first steps in the process of developing and
       pursuing fraud during audits, we continue to believe further enhancements, such as
       requiring examiners to acknowledge which indicators, if any, were considered during the
       audit, would be beneficial. We also added language in the body of the report to clarify
       that IRS officials revised the Fraud Development Lead Sheet during our review.
Recommendation 2: Reinforce the importance of involving an FTA in audits when there are
indicators of fraud by providing specific examples in the IRM for examiners and first-line
managers to use in considering whether it would be beneficial to involve an FTA.
       Management’s Response: IRS officials did not agree to this recommendation but do
       plan to take alternative corrective action. Specifically, IRS officials will issue a
       memorandum to all Examination compliance employees emphasizing the importance of
       involving an FTA in audits when there are indicators of fraud along with highlighting
       fraud awareness expectations and responsibilities and proper involvement of FTAs.
       Office of Audit Comment: The TIGTA considered the planned alternative corrective
       action and concluded that it is responsive to our recommendation. However, we
       encourage IRS officials to go beyond merely reiterating existing IRM procedures in their
       memorandum and provide additional instructions and guidance to clarify when the
       assistance of an FTA should be sought in an audit rather than leaving the decision largely
       to the experience and judgment of the first-line manager. Such clarification is important
       for two reasons. First, there is potential revenue at stake. As noted in their response, IRS
       officials agreed that the recommendations have the potential to increase revenue by some
       $19.7 million over a year ($98.5 million over five years) from approximately 1,872 field
       audits. Second, as discussed in the report, SB/SE Division Examination personnel and
       the technical advisors did not always agree with each other over the conclusions reached
       in our case reviews.




                                                                                           Page 10
                                     Actions Can Be Taken to Reinforce
                               the Importance of Recognizing and Investigating
                                     Fraud Indicators During Field Audits



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether fraud is recognized and pursued during
field audits1 of individual tax returns in accordance with IRS procedures and guidelines.
To accomplish this objective, we:
I.         Evaluated the adequacy of controls for ensuring fraud penalties are adequately considered
           and applied during field audits.
           A. Documented the applicable Internal Revenue Code sections, Treasury Regulations,
              the IRM, management directives, examiner training materials, and IRS public
              announcements and notices that provide the authority and reasons for assessing the
              penalty.
           B. Interviewed IRS officials to obtain an understanding of all policies, procedures, and
              techniques (management controls).
           C. Obtained quality review results related to fraud consideration in field audits from the
              NQRS and the Embedded Quality Review System to determine any areas identified
              for improvement and the actions taken by management to address weaknesses in the
              areas identified.
II.        Determined if examiners followed procedures and guidelines during consideration of the
           civil fraud penalty and the potential tax effect of noncompliance.
           A. Obtained an extract from the Audit Information Management System of field audits
              closed between July 1, 2009, and June 30, 2010, for sole proprietor Form 10402
              returns (Activity Codes 274 through 277) and high-income taxpayers (more than
              $200,000) (Activity Codes 279 through 281) that had an agreed assessment equal to
              or greater than $10,000. From this extract, only those records with a Fraud Condition
              Indicator Code of 00 or blank were selected. Any records in which the civil fraud
              penalty was applied were removed from the population. This was performed by
              matching the remaining records against the Individual Master File, eliminating any
              records with a dollar amount in Transaction Code 320 (Fraud Penalty) and
              Transaction Code 240 with Penalty Reference Number 686 (Accuracy-Related
              Penalty for Fraudulent Failure to File).


1
    See Appendix VII for a glossary of terms.
2
    Form 1040, U.S. Individual Income Tax Return.
                                                                                              Page 11
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



       B. Validated the data by comparing the data to the Integrated Data Retrieval System and
          the IRS’s Statistics of Income Table 37.
       C. Stratified the population of field audits identified in Step II.A into four strata based on
          the amount of additional tax assessed. See Figure 1 of Appendix IV for details
          regarding each of the four strata. We then selected a statistical sample of 116 closed
          field audits using a 95 percent confidence level, ±12.17 percent precision rate, and
          50 percent occurrence rate as discussed with the TIGTA’s contracted independent
          statistician. A statistical sample was taken because we wanted to estimate the number
          of audits and amount of dollars associated with not properly considering the fraud
          penalty for a population of 9,292 field audits.
       D. Determined if examiners are complying with the procedures and guidelines required
          for considering the fraud penalty.
       E. Assessed whether examiners adequately considered the fraud penalty during field
          audits and whether there may be opportunities to enhance revenue. For revenue
          enhancements, we calculated the potential penalty amount by multiplying the
          75 percent civil fraud penalty rate by the agreed assessment amount and subtracting
          any amounts previously assessed for accuracy-related penalties.
III.   Assessed the emphasis placed on recognizing, considering, and developing fraud in the
       performance feedback provided to examiners and first-line managers.
       A. Summarized the performance feedback given to a judgmental sample of 20 examiners
          included in our audit reviews during FYs 2009 through FY 2011 by extracting the
          requisite information recorded in the Embedded Quality Review System attribute
          (i.e., Attribute 407) dealing with recognizing, considering, and developing fraud. We
          used judgmental sampling to select the examiners because we did not plan to project
          our results.
       B. Reviewed the FYs 2009 through 2011 midyear and annual appraisals and summarized
          feedback related to recognizing, considering, and developing fraud that was given to
          the judgmental sample of 20 examiners in Step III.A.
       C. Identified the first-line manager for each of the 20 examiners identified in Step III.A.
          and evaluated the performance expectations for the first-line managers to determine if
          there were any commitments or expectations relating to asserting the fraud penalty.
          We used judgmental sampling to select the first-line managers because we did not
          plan to project our results.
IV.    Determined if corrective actions from prior TIGTA reports have been implemented.




                                                                                            Page 12
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
determining during field audits whether examiners are recognizing and pursuing fraud indicators.
We evaluated these controls by reviewing source materials, interviewing management, and
reviewing a sample of 116 examined closed field audits.




                                                                                           Page 13
                              Actions Can Be Taken to Reinforce
                        the Importance of Recognizing and Investigating
                              Fraud Indicators During Field Audits



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Audit Manager
Carole Connolly, Lead Auditor
Alberto Garza, Lead Auditor
Malissa Livingston, Lead Auditor
Stanley Pinkston, Senior Auditor
Donna Saranchak, Senior Auditor
Tina Augustine, Auditor
Cynthia Dozier, Auditor
Bridgid Shannon, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 14
                             Actions Can Be Taken to Reinforce
                       the Importance of Recognizing and Investigating
                             Fraud Indicators During Field Audits



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 15
                                   Actions Can Be Taken to Reinforce
                             the Importance of Recognizing and Investigating
                                   Fraud Indicators During Field Audits



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $19.7 million from additional penalties assessed for
    1,872 field audits;1 $98.5 million over five years (see page 6).
    Our calculation assumes that the civil fraud penalty would have been recommended,
    assessed, and sustained upon any taxpayer appeal, on the entire amount of additional taxes
    owed for 50 percent of the field audits that we determined were exceptions had the examiners
    adequately considered and investigated the potential fraudulent activity of the taxpayer
    during the audit.
    We limited our penalty calculation to 50 percent of the audits based on analyzing readily
    available IRS data that suggest roughly half2 of the field audits placed in fraud development
    status result in a civil fraud penalty recommendation. Specifically, IRS data showed that in
    FYs 2008 through 2011 an average of 2,327 Forms 11661, Fraud Development
    Recommendation – Examination, were completed annually during field audits in the SB/SE
    Division. IRS data also showed that in FYs 2008 through 2011 an average of 1,175 civil
    fraud penalties were recommended during SB/SE Division field audits.
    Additionally, this calculation is net of any accuracy-related penalties that were previously
    assessed during the field audits. Further, the value of the outcome measure does not include
    amounts (revenue) that would partially offset this benefit as a result of directing examination
    resources away from other taxpayer returns in order to pursue the civil fraud penalty cases.




1
  See Appendix VII for a glossary of terms.
2
  The approximate percentage was calculated by taking the number of civil fraud penalty recommendations and
dividing by the number of Forms 11661 completed over the four-year period. We did not analyze the data to
determine whether the civil fraud penalty was recommended within the same year that the taxpayer was placed into
fraud development status. Therefore, the approximate percentage for the four-year period may differ as it may
include completion of a Form 11661 in a different year than when the civil fraud penalty was recommended. A
four-year average is provided to account for the potential overlap between fiscal years.
                                                                                                        Page 16
                                      Actions Can Be Taken to Reinforce
                                the Importance of Recognizing and Investigating
                                      Fraud Indicators During Field Audits



Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with the difference between the number
of civil fraud penalties assessed and the number that should be assessed in sole proprietor and
high-income taxpayer field audits, we reviewed a statistically valid stratified sample, as shown in
Figure 1, of 116 field audits from a population of 9,292 field audits of sole proprietors and
high-income taxpayers that were closed between July 1, 2009, and June 30, 2010, and had an
agreed assessment of more than $10,000.
                                   Figure 1: Statistical Sampling Data

                                   Strata                                       Universe Size         Sample Size

    Strata 1: Tax assessment of $500,000 or greater                                    19                   163
    Strata 2: Tax assessment between $100,000 and $499,999                            427                   26
    Strata 3: Tax assessment between $40,000 and $99,999                             1,381                  29
    Strata 4: Tax assessment between $10,000 and $39,999                             7,465                  45
                                                                     Totals          9,292                  116
Source: TIGTA analysis of an extract from the Audit Information Management System of field audits closed
between July 2009 and June 2010 for sole proprietor and high-income taxpayers with an agreed assessment equal
to or greater than $10,000 and for which fraud penalties were not applied and TIGTA’s sampling plan.

      Calculated the weighted average error rate for our sample, which was required due to our
       stratified sampling methodology.
       o Prior to determining our overall weighted average error rate for our sample, we first had
         to determine the weight of each strata in our universe. To do so, we divided the number
         of field audits in each strata by the total field audits in the universe, as shown in Figure 2.




3
  We attempted to review all of the audits in Stratum 1; however, we did not receive files for three of the audits, and
therefore, we limited our review to the 16 audits we received.
                                                                                                              Page 17
                                       Actions Can Be Taken to Reinforce
                                 the Importance of Recognizing and Investigating
                                       Fraud Indicators During Field Audits



                                    Figure 2: Weight of Strata in Universe

                                                                                  Weight of Strata in Universe
                                                                  Strata            (Strata Universe Size/
                               Strata                          Universe Size         Total Universe Size)4

    Strata 1: Tax assessment of $500,000 or greater                          19                           0.20%
    Strata 2: Tax assessment between $100,000 and $499,999                  427                           4.60%
    Strata 3: Tax assessment between $40,000 and $99,999               1,381                             14.86%
    Strata 4: Tax assessment between $10,000 and $39,999               7,465                             80.34%
                                                      Totals           9,292                           100.00%
Source: TIGTA analysis of an extract from the Audit Information Management System of field audits closed
between July 2009 and June 2010 for sole proprietor and high-income taxpayers with an agreed assessment equal
to or greater than $10,000 and for which fraud penalties were not applied.

       o Next, we calculated the error rate per strata, as shown in Figure 3, by dividing the number
         of errors in each strata by the sample size for each strata and multiplying by 100.
                                        Figure 3: Error Rate per Strata

                                                                    Number                        Error Rate
                                 Strata                             of Errors      Sample Size    per Strata

    Strata 1: Tax assessment of $500,000 or greater                     0               16           0.00%
    Strata 2: Tax assessment between $100,000 and $499,999             10               26           38.46%
    Strata 3: Tax assessment between $40,000 and $99,999                8               29           27.59%
    Strata 4: Tax assessment between $10,000 and $39,999                8               45           17.78%
                                                           Totals      26              116
Source: TIGTA’s sampling plan and audit file analysis.

           o We then calculated the weighted average error rate for our sample, as shown in
             Figure 4, by multiplying the error rate for each strata by the percentage of each
             respective strata represented in our universe (i.e., “Weight of Strata in Universe”) and
             summing the results.




4
    Percentages are rounded.
                                                                                                      Page 18
                                      Actions Can Be Taken to Reinforce
                                the Importance of Recognizing and Investigating
                                      Fraud Indicators During Field Audits



         Figure 4: Weighted Average Error Rate Calculation for Stratified Sample

                                                                                 Weight of
                                                               Error Rate        Strata in         Weight of
                              Strata                           per Strata        Universe          Error Rate

    Strata 1: Tax assessment of $500,000 or greater               0.00%            0.20%              0.00%
    Strata 2: Tax assessment between $100,000 and $499,999        38.46%           4.60%              1.77%
    Strata 3: Tax assessment between $40,000 and $99,999          27.59%           14.86%             4.10%
    Strata 4: Tax assessment between $10,000 and $39,999          17.78%           80.34%             14.28%
                                                      Weighted average error rate for sample         20.15%
Source: TIGTA analysis of 1) an extract from the Audit Information Management System of field audits closed
between July 2009 and June 2010 for sole proprietor and high-income taxpayers with an agreed assessment equal
to or greater than $10,000 and for which fraud penalties were not applied and 2) results of audit file testing.

      Based on our sample error rate of 20.15 percent and a confidence level of 95 percent
       (±9.41 percent precision), we calculated the number of field audits where fraud was not
       adequately recognized and pursued to be 1,872 field audits [9,292 x 20.15 percent], with a
       range of 998 to 2,747.
      To estimate the potential amount of additional civil fraud penalties that may have been
       assessed for these 26 field audits, we computed the additional penalty assessment by
       multiplying the agreed assessment for each audit by the 75 percent civil fraud penalty rate
       and subtracting any amounts previously assessed for accuracy-related penalties. Based on
       this analysis, we estimated that had potential fraud been adequately considered and
       investigated for these 26 field audits, $1.3 million in additional penalties could have been
       assessed.5
       o However, as discussed previously, our analysis of available data suggests that there is a
         50 percent probability that a civil fraud penalty will be recommended when a
         Form 11661 is completed. Based on this probability, we reduced the above amount by
         50 percent, from $1.3 million to $650,000.
      To determine the total amount of potential additional penalties owed for the field audits in
       our universe, we:
       o Calculated the weighted average additional penalties for all 116 field audits in our
         sample. To calculate the weighted average additional penalties, we calculated the
         average additional penalties for each strata and then multiplied it by the weight of the


5
    Amounts are rounded to the nearest dollar.
                                                                                                        Page 19
                                      Actions Can Be Taken to Reinforce
                                the Importance of Recognizing and Investigating
                                      Fraud Indicators During Field Audits



           strata in our universe. We summed the results for each strata to arrive at the weighted
           average additional penalties for our sample. See Figure 5 for details of our calculation.
                         Figure 5: Weighted Average Penalty Dollar Calculation6

                              Strata                                 Average           Weight of          Weight of
                                                                    Additional         Strata in          Additional
                                                                    Penalties7         Universe           Penalties8

    Strata 1: Tax assessment of $500,000 or greater                      $0               0.20%                $0
    Strata 2: Tax assessment between $100,000 and $499,999            $37,720             4.60%             $1,735
    Strata 3: Tax assessment between $40,000 and $99,999               $8,455            14.86%             $1,256
    Strata 4: Tax assessment between $10,000 and $39,999               $1,549            80.34%             $1,244
                                                Weighted average additional penalties for sample            $4,235
Source: TIGTA analysis of 1) an extract from the Audit Information Management System of field audits closed
between July 2009 and June 2010 for sole proprietor and high-income taxpayers with an agreed assessment equal
to or greater than $10,000 and for which fraud penalties were not applied and 2) results of audit file testing.

      To calculate the potential amount of additional penalties owed by sole proprietors and
       high-income taxpayers in our universe who we estimate may have avoided a civil fraud
       penalty that otherwise should have been assessed, we multiplied the number of field audits in
       the universe by the weighted average additional penalties for our sample field audits
       [9,292 x $4,235 = $39.4 million]. The $39.4 million represents the point estimate for the
       total potential additional penalties for a one-year period. Based on a 95 percent confidence
       interval, the total potential additional penalties range from $25.5 million to $53.2 million.
       o However, as discussed previously, our analysis of available data suggests that there is a
         50 percent probability that a civil fraud penalty will be recommended when a
         Form 11661 is completed. Based on this probability, we reduced the above additional
         penalty amount by 50 percent. Therefore, we estimate that sole proprietors and
         high-income taxpayers in our universe may have avoided additional penalties totaling
         $19.7 million.9 Our calculation assumes that for 50 percent of the field audits that we
         determined were exceptions, the civil fraud penalty would have been recommended,
         assessed, and sustained upon taxpayer appeal, on the entire amount of additional taxes


6
  Amounts in Figure 5 are calculated using the estimate for $1.3 million in additional penalty assessments.
7
  Amounts are rounded to the nearest dollar.
8
  Amounts are rounded to the nearest dollar.
9
  We are unable to quantify the degree of uncertainty associated with the estimated $19.7 million in additional
assessments because of the variability in the dollars assessed for the population of exception audits and the
uncertainty as to which of the individual exception audits could have resulted in a civil fraud penalty assessment.
                                                                                                             Page 20
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



       owed had the examiners adequately considered and investigated the potential fraudulent
       activity of the taxpayer during the audit.
   To calculate the potential amount of additional penalties owed by sole proprietors and
    high-income taxpayers in our universe who we estimate may have avoided a civil fraud
    penalty that otherwise should have been assessed over five years if the IRS does not change
    its procedures, we multiplied the total amount of additional penalties we estimated is owed
    for the field audits closed between July 2009 and June 2010 by five to obtain the amount of
    taxes [$19,700,000 x 5 = $98,500,000]. Our calculation assumes that all estimated penalties
    would be owed based upon the development of fraud and that conditions such as economic
    factors, tax law, compliance rates, and IRS audit coverage remain the same.
We shared our sampling and outcome measure methodologies with an outside statistical expert
who confirmed the accuracy of our methodology and projection.




                                                                                        Page 21
                                      Actions Can Be Taken to Reinforce
                                the Importance of Recognizing and Investigating
                                      Fraud Indicators During Field Audits



                                                                                             Appendix V

          Summary of Disagreed Exception Field Audits

This appendix summarizes the responses provided by the FTAs1 and SB/SE Division
Examination function officials for the 13 field audits where the Examination function officials
disagreed with both our conclusions and those of the IRS’s FTAs. One common issue in these
field audits was the absence of evidence to show third parties were contacted to determine who
was responsible for the potential fraudulent acts. According to the IRM, substantiating
information obtained from taxpayers with third parties is a critical investigative technique for
investigating fraud.

                                                       SB/SE Division
Audit            TIGTA’s Conclusions            Examination Function Response       FTA (Fraud/BSA) Response

    1




                                                *********1*********** .         ************1*********
           ************1*********

                                                                                .




1
    See Appendix VII for a glossary of terms.
                                                                                                     Page 22
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



                                              SB/SE Division
Audit        TIGTA’s Conclusions       Examination Function Response     FTA (Fraud/BSA) Response

 2                                     *******1***********             ***********1************
        ***********1****************




 3      **********1************        ************1**************     ************1*************




                                                                                           Page 23
                                 Actions Can Be Taken to Reinforce
                           the Importance of Recognizing and Investigating
                                 Fraud Indicators During Field Audits



                                               SB/SE Division
Audit          TIGTA’s Conclusions      Examination Function Response     FTA (Fraud/BSA) Response

    4     *************1***********     ************1***************    ************1*************




    5     ***********1**************    ***********1**************      ********1**********




2
    ******************1**********************.
                                                                                              Page 24
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



                                             SB/SE Division
Audit        TIGTA’s Conclusions      Examination Function Response     FTA (Fraud/BSA) Response

 6      **************1************   *************1*************     **************1************
                                      .




 7      ***************1***********   ************1*************** ************1**************




                                                                                          Page 25
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



                                               SB/SE Division
Audit        TIGTA’s Conclusions        Examination Function Response     FTA (Fraud/BSA) Response

    8   ***************1*************   *************1**************    ************1***************




    9   *************1***************   **************1*************    ************1***************




3
 ****************************1*******************************************************
********************************1**************************************


                                                                                            Page 26
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



                                              SB/SE Division
Audit        TIGTA’s Conclusions       Examination Function Response     FTA (Fraud/BSA) Response

 10     ***************1************   ************1**************     ***********1*********




 11     **************1*************   *************1**************    *************1*************




                                                                                           Page 27
                                   Actions Can Be Taken to Reinforce
                             the Importance of Recognizing and Investigating
                                   Fraud Indicators During Field Audits



                                                     SB/SE Division
Audit          TIGTA’s Conclusions            Examination Function Response         FTA (Fraud/BSA) Response

    12    ***************1***********        ***********1****************        *************1*************
          .




    13    *************1***************      ***********1*****************       ************1**************




Source: Summary of SB/SE Division Examination function and Fraud/BSA function officials’ written comments as
well as TIGTA’s conclusions for the 13 exception field audits for which Examination function officials disagreed
with the conclusions reached by both the TIGTA and Fraud/BSA function officials.

4
    ************************1**********************************************************.
5
    **********************************1*********************************************.
                                                                                                        Page 28
                        Actions Can Be Taken to Reinforce
                  the Importance of Recognizing and Investigating
                        Fraud Indicators During Field Audits



                                                                                    Appendix VI

            Fraud Development Lead Sheet




Source: SB/SE Division Workpaper 205-1, dated March 2011.
Abbreviations are used for the following terms in this lead sheet: Internal Revenue Code (IRC)
and Audit Information Management System (AIMS).

                                                                                                 Page 29
      Actions Can Be Taken to Reinforce
the Importance of Recognizing and Investigating
      Fraud Indicators During Field Audits




                                                  Page 30
                                Actions Can Be Taken to Reinforce
                          the Importance of Recognizing and Investigating
                                Fraud Indicators During Field Audits



                                                                                  Appendix VII

                                Glossary of Terms

Activity Codes – A code that identifies the type and condition of returns selected for audit.
Attributes – Concise statements of SB/SE Division’s expectations for quality audits. Attributes
are guidelines to assist examiners in fulfilling their professional responsibilities.
Audit Information Management System – A computer system used to control returns, input
assessments/adjustments to the Integrated Data Retrieval System, and provide management
reports.
Embedded Quality Review System – The Embedded Quality Review System allows field
managers to provide timely feedback to individual employees through performance reviews of
audits.
Field Audit – A field audit is an audit of a tax return that is typically conducted by a revenue
agent. A revenue agent conducts face-to-face audits of more complex tax returns such as
businesses, partnerships, corporations, and specialty taxes (e.g., excise tax returns).
First-Line Manager – a group manager in the Examination function responsible for supervision
of IRS examiners.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Fraud Condition Indicator Code – A code that identifies for audited returns the following
conditions: no fraud, civil fraud, criminal fraud, both civil and criminal fraud, or blank.
Fraud/Bank Secrecy Act Function – Within the IRS, the SB/SE Division Fraud/BSA function
provides oversight and direction for fraud policy and operations Service-wide and examines for
compliance with BSA requirements.
Fraud Technical Advisor – An FTA is a specialized revenue agent who provides guidance to
other examiners who have identified fraud indicators. Among their various responsibilities, the
FTAs provide technical and procedural fraud advice to examiners to help identify and develop
potential civil fraud penalty cases and criminal fraud referrals. The FTAs are qualified to
provide such guidance because they are required to have specialized knowledge of the laws,
regulations, and procedures governing criminal and civil tax fraud cases as well as extensive
fraud development experience.



                                                                                            Page 31
                               Actions Can Be Taken to Reinforce
                         the Importance of Recognizing and Investigating
                               Fraud Indicators During Field Audits



Group Manager Concurrence Meeting – The group manager concurrence meeting is an
opportunity for a group manager and examiner to have a detailed and meaningful discussion
about the audit. Involvement by a group manager in the early stages results in fewer delays,
increased efficiency, and higher quality of examinations.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Integrated Data Retrieval System – The Integrated Data Retrieval System is the IRS computer
system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
National Quality Review System – The NQRS allows national reviewers to evaluate audit files
to determine whether examiners complied with quality attributes established by the IRS.
Penalty Reference Number – Penalty reference numbers are used to assess and abate
miscellaneous civil penalties.
Tax Year – The 12-month period for which tax is calculated. For most individual taxpayers, the
tax year is synonymous with the calendar year.
Territory Manager – Territory managers are responsible for planning, organizing, coordinating,
monitoring, and directing their respective programs through subordinate managers who are
geographically dispersed throughout the assigned territory.
Transaction Code – A three-digit code used to identify actions being taken on a taxpayer’s
account.




                                                                                         Page 32
              Actions Can Be Taken to Reinforce
        the Importance of Recognizing and Investigating
              Fraud Indicators During Field Audits



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                          Page 33
      Actions Can Be Taken to Reinforce
the Importance of Recognizing and Investigating
      Fraud Indicators During Field Audits




                                                  Page 34
      Actions Can Be Taken to Reinforce
the Importance of Recognizing and Investigating
      Fraud Indicators During Field Audits




                                                  Page 35
      Actions Can Be Taken to Reinforce
the Importance of Recognizing and Investigating
      Fraud Indicators During Field Audits




                                                  Page 36
